                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                           \                     OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: A03010001                                                                     Page 1 of 1



    The complainant1alleged improper posting of the text of his NSF proposal2 on a web site
    associated with the ~ubject.~The subject served on the NSF panel that reviewed the
    complainant's proposal. The complainant contacted the subject independently, and the subject
    immediately removed the proposal text from the website. The proposal text content remained in
    the cached file of the web search engine4,but this content has also now been removed.

    The subject has apologized via email to the complainant, and also has contacted NSF program
    officers accepting responsibility and apologizing for his actions. In his response letter to the OIG
    inquiry letter, the subject admits to his actions, states that the material was available for a limited
    amount of time in conjunction with a class that he taught, and vows that such actions will not
    recur. In the letter, the subject also states that he has informed his University officials of the
    situation.

    The subject was sent a warning letter emphasizing the confidentiality of the peer review process,
    and reminding him of the adverse consequences that may arise from breach of that
    confidentiality. No further action is necessary to protect the interests of lVSF.

    Accordingly, this case is closed.




    ' redacted
     redacted
     redacted
     redacted




                                                                                        NSF OIG Form 2 (1 1/02)
